<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                            [H.A.S.C. No. 116-70]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2021

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION
                               __________

                   SUBCOMMITTEE ON READINESS HEARING

                                   ON

    THE FISCAL YEAR 2021 AIR FORCE AND SPACE FORCE READINESS POSTURE
                               __________

                              HEARING HELD
                             MARCH 3, 2020


                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                 
                 
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
41-500                    WASHINGTON : 2021   
                 

                                     
  
                       SUBCOMMITTEE ON READINESS

                  JOHN GARAMENDI, California, Chairman

TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
ANDY KIM, New Jersey, Vice Chair     AUSTIN SCOTT, Georgia
KENDRA S. HORN, Oklahoma             JOE WILSON, South Carolina
CHRISSY HOULAHAN, Pennsylvania       ROB BISHOP, Utah
JASON CROW, Colorado                 MIKE ROGERS, Alabama
XOCHITL TORRES SMALL, New Mexico     MO BROOKS, Alabama
ELISSA SLOTKIN, Michigan             ELISE M. STEFANIK, New York
VERONICA ESCOBAR, Texas              JACK BERGMAN, Michigan
DEBRA A. HAALAND, New Mexico
                Jay Vallario, Professional Staff Member
                 John Muller, Professional Staff Member
                           Sean Falvey, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Garamendi, Hon. John, a Representative from California, Chairman, 
  Subcommittee on Readiness......................................     1
Lamborn, Hon. Doug, a Representative from Colorado, Ranking 
  Member, Subcommittee on Readiness..............................     3

                               WITNESSES

Manasco, Shon J., Acting Under Secretary of the Air Force, 
  Department of the Air Force....................................     5
Thompson, Lt Gen David D., USAF, Vice Commander, Headquarters, 
  United States Space Force......................................     7
Wilson, Gen Stephen W., USAF, Vice Chief of Staff, Department of 
  the Air Force..................................................     6

                                APPENDIX

Prepared Statements:

    Garamendi, Hon. John.........................................    25
    Lamborn, Hon. Doug...........................................    27
    Manasco, Shon J., joint with Gen Stephen W. Wilson and Lt Gen 
      David D. Thompson..........................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Scott....................................................    45

Questions Submitted by Members Post Hearing:

    Mr. Garamendi................................................    49
    Mr. Kim......................................................    54
    Mr. Lamborn..................................................    52
    Mr. Scott....................................................    52
    Mr. Wilson...................................................    54
    THE FISCAL YEAR 2021 AIR FORCE AND SPACE FORCE READINESS POSTURE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                            Washington, DC, Tuesday, March 3, 2020.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2118, Rayburn House Office Building, Hon. John Garamendi 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JOHN GARAMENDI, A REPRESENTATIVE FROM 
        CALIFORNIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Garamendi. This is one of those days where there are a 
lot of things going on, one hearing stacked upon another, and I 
know members of this committee have in 15 minutes two hearings 
going on simultaneously. So, we will do the best we can to move 
through this one.
    I have a short statement I am going to read and Mr. Lamborn 
may also. Mr. Lamborn has given me permission to speak for him, 
which he will only do once.
    [Laughter.]
    Today, the subcommittee will hear from the Acting Under 
Secretary of the Air Force, the Air Force Vice Chief of Staff, 
and the Vice Commander of the Space Force regarding the state 
of military readiness and how the fiscal 2021 operation and 
maintenance budget request supports military training, weapon 
systems maintenance, and efforts to meet the full spectrum of 
readiness requirements that align with the National Defense 
Strategy.
    I am especially delighted to welcome the witnesses from our 
newest branch of service. General Thompson, welcome.
    Oh, now the hard part; the welcoming is over.
    [Laughter.]
    This subcommittee is interested in hearing from you 
regarding the progress made in standing up the Space Force, and 
from each of the witnesses, we would like to hear from you 
about how the Department intends to man, train, equip, fund, 
and sustain the Space Force without impact on the other tasks 
that you have. We understand that you are early in the process 
of standing up the Space Force and that much work is in front 
of you, and therefore, we desire to have today the ultimate 
plan presented to us--not likely.
    For the past several years, we have heard the services 
raise their concerns with the state of the military's full-
spectrum readiness after more than a decade of focusing on 
counterterrorism-counterinsurgency missions. The fiscal year 
2020 enacted defense appropriation and the agreed-upon defense 
top line for 2021 represent significant increases in defense 
spending. I hope today our witnesses can discuss how these 
additional resources have been executed by the Department and 
where we have seen progress in readiness and areas that still 
require additional attention.
    That said, this subcommittee is concerned that the 
Department, and especially the Air Force, remains overly 
focused on long-term readiness through modernization programs. 
We--I--feel that you must place more emphasis on investing in 
near-term readiness accounts that maintain and sustain the 
systems that we have in place today, and will have for the next 
decade or longer.
    For example, last year the Department only funded 88 
percent of the requirement in your weapons sustainment account 
and you did not meet aircraft mission capability standard 
across the service. In fiscal year 2021, the request for the 
weapon systems sustainment accounts, the full funding will meet 
87 percent of the requirement, a little less than last year. 
This subcommittee would like to hear from you how you intend to 
increase aircraft readiness while funding these readiness 
accounts to a lesser degree than last year.
    In addition, I am concerned that the Air Force is still 
relying on overseas contingency operations [OCO] funding to 
meet basic requirements. Notably, roughly 65 percent in fiscal 
year 2021 for weapon systems sustainment is in the overseas 
contingency account. Depending on OCO funds for regular and 
well-understood requirements such as depot maintenance activity 
underlines how institutionalized the Department's dependence on 
OCO funding has become. Going forward, the Department and 
Congress both must be prepared for a world where this will 
change. And apparently, if the current negotiations in 
Afghanistan bear fruit, the change is coming sooner than later.
    Related to the budget request, several issues have caught 
our subcommittee's attention and that impact the readiness of 
the force. First, that old favorite, the F-35 sustainment. The 
Air Force has a stretched goal of achieving a cost per flight 
hour of $25,000 per hour in 2025; ``25 in '25'' I believe is 
the word you use. This committee would like to hear about 
specific initiatives that you are taking as a service to reduce 
these sustainment costs and to ensure that you can afford this 
weapon system as we continue to grow the fleet.
    The second issue is the aerial refueling tanker 
availability to meet combat commander requirements. Given the 
delays in the KC-46A program, this committee is concerned with 
the Air Force request to retire 10 KC-10 tankers and 13 KC-135 
tankers in fiscal year 2021. So, how does this work? The 
concern is echoed in a recent TRANSCOM [United States 
Transportation Command] unfunded requirements letter where it 
lists these aircraft as the number one unfunded priority to 
meet the National Defense Strategy mission requirements. I now 
understand that the Secretary of Defense, Mr. Esper, says that 
unfunded priorities are really our priorities, congressional 
priorities. Perhaps they are both our priorities.
    The third issue we would like to hear about concerns 
progress you have made in your effort to close the pilot 
shortfall gap.
    Lastly--and I said this would be short, but it is not--I 
would be remiss if I didn't mention the actions taken by the 
Department last month that disregard Congress' constitutional 
authority to determine how the Nation spends defense dollars. 
The decision to reprogram $3.8 billion away from military 
readiness and modernization efforts in order to construct a 
barrier on the southern border of the United States goes 
against the priorities of the National Defense Strategy and 
ignores decades of precedent regarding the reprogramming 
process. This decision, combined with the $3.6 billion stolen 
from military construction projects last year, is both 
disturbing and, in my view, contrary to our Nation's security. 
So, gentlemen, be prepared for questions along this line.
    With that, I now turn to the ranking member, Congressman 
Doug Lamborn of Colorado, for any opening remarks he would 
like, unless he would simply like to--no, you don't want to do 
that, Doug. Your turn.
    [The prepared statement of Mr. Garamendi can be found in 
the Appendix on page 25.]

STATEMENT OF HON. DOUG LAMBORN, A REPRESENTATIVE FROM COLORADO, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Mr. Lamborn. Okay. Thank you, Mr. Chairman.
    Today, we will hear testimony regarding the readiness of 
the Air Force to execute the National Defense Strategy under 
the President's fiscal year 2021 budget request. As DOD 
[Department of Defense] shifts its primary focus from 
countering violent extremist organizations to great power 
competition, our subcommittee will be very interested in how 
the Air Force balances current readiness with modernization 
investments. Recent events in the Middle East are a stark 
reminder of the risk that comes from leaving vacuums for malign 
actors such as Iran to fill.
    Today, we will also hear about the progress in standing up 
the new Space Force. This recognition of the importance of 
space as a warfighting domain is long overdue and will be vital 
to the future readiness of the joint force. My understanding is 
that Space Force will leverage existing support, Air Force 
infrastructure, and administration to the maximum extent 
possible. This is vital to maximizing capability and minimizing 
overhead.
    We also eagerly await the Department of the Air Force's 
decision about the permanent basing location for the Space 
Command headquarters. As you know, I believe that Colorado 
Springs is the best option, based on many factors ranging from 
location, civilian and military workforce, existing 
infrastructure and capabilities, and quality of life for 
service members and their families.
    Now one of the most important issues in the fiscal year 
2021 budget request is the proposed expansion of the Nevada 
Testing and Training Range. The subcommittee has already heard 
testimony regarding the importance of this range to support 
operational readiness. The proposed expansion would enable the 
Air Force to conduct more realistic training for fifth-
generation platforms and engagements using precision-guided 
munitions. The use of land buffers will protect training 
resources while preserving natural habitats. I look forward to 
hearing from our witnesses regarding their progress with 
stakeholder outreach and engagement with the Natural Resources 
Committee since our last update.
    Issues with the fielding of two new platforms are creating 
challenges for the Air Force and adding strain to its already 
stressed budget. The first one--and this has been mentioned as 
well--and that is the F-35 Joint Strike Fighter. While the 
capability it brings to the fight is a critical game-changer, 
ongoing supply chain issues and problems with the ALIS 
[Autonomic Logistics Information System]--or is it now ODIN 
[Operational Data Integrated Network]?--data system continue to 
create challenges for the program. We also need more clarity 
about how the program will impact future Air Force budgets. As 
we ramp up production, the imperative of getting sustainment 
right takes on even more importance.
    And I look forward to hearing from our witnesses regarding 
their perspectives about the technical data and intellectual 
property issues in the F-35 program. I personally don't believe 
that the Department should enter into a multiyear performance 
contract until all remaining technical data and intellectual 
property issues are resolved. We would also benefit from your 
thoughts about how we can shift more sustainment 
responsibilities to the military departments.
    The other program with fielding issues is the KC-46A. As of 
December 2019, Boeing had delivered 30 of these tankers to the 
Air Force. Unfortunately, ongoing issues with the Remote Vision 
System [RVS] mean that these aircraft cannot yet perform 
operational tanker capacity. This shortfall caused the U.S. 
TRANSCOM commander to request that the Department defer the 
retirement of 23 legacy KC-10 and KC-135 tankers in his 
unfunded priority list. We look forward to hearing from our 
witnesses about the way ahead to address these shortfalls.
    One of the key readiness enablers in the Air Force is the 
organic industrial base. Our depots provide the capability to 
maintain warfighting capabilities throughout their life cycles. 
I am concerned that the Air Force plan to recapitalize the 
depots will require significant investment over many years at a 
time when it will continue to have a number of other major 
funding challenges.
    And my final concern is about people. This was also 
mentioned by the chairman. The Air Force has a pilot shortfall 
of about 2,000, but chose not to fund almost 200 new pilots in 
the budget request. It is unclear how we will reduce this 
backlog without full funding.
    So, thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Mr. Lamborn can be found in the 
Appendix on page 27.]
    Mr. Garamendi. Thank you, Mr. Lamborn. Indeed, if our staff 
had gotten together, we could have written one because what you 
said is what I would have said, and perhaps vice versa.
    I would like to now welcome our witnesses and thank you for 
your leadership and the service that you provide to our country 
and for representing the respective services today.
    Let's start with Acting Under Secretary of the Air Force, 
Mr. Shon Manasco. Did I do that correctly?

STATEMENT OF SHON J. MANASCO, ACTING UNDER SECRETARY OF THE AIR 
               FORCE, DEPARTMENT OF THE AIR FORCE

    Mr. Manasco. You did, Mr. Chairman. Thank you.
    So, Mr. Chairman, Ranking Member Lamborn, distinguished 
committee members, thank you for the opportunity to be here 
today. We never take your support for granted and appreciate 
the advocacy of this committee and what you provide to our Air 
and Space Forces, and we are truly grateful.
    With the prepared statement in the record, allow me to open 
with just a few key points.
    Mr. Garamendi. Let me take that up. Without objection, all 
the written statements will be entered into the record. So 
ordered.
    Mr. Manasco. Thank you.
    The Department of the Air Force spent the better part of 
the last three decades in a readiness decline with a shrinking 
force and a procurement holiday. But the 2013 sequester was a 
major setback for the United States military, I think as you 
are aware, and, in fact, it did more to damage readiness than 
any enemy combatant in recent history. But in 2017, thanks to 
your leadership, that started to change, and over the last 3 
years, through consistent budgets, steady topline increases, 
and, most importantly, your support, we arrested years of 
readiness decline and began to rebuild the force. Since April 
of 2018 alone, we increased readiness by 16 percent across the 
Department of the Air Force and 35 percent in our leading 
operational squadrons.
    I cannot overemphasize just how important stable and 
predictable budgets are to morale and readiness. They give us 
the ability to invest in new programs and to build combat-
capable forces ready to compete, deter, and should deterrence 
fail, defeat those adversaries set upon destructing our way of 
live.
    But we are still too small for what the Nation has asked. 
With the rise of great power competition and the ongoing fight 
in the Middle East, the demand for air and space power 
continues to tax our force, driving tradeoffs between meeting 
operational requirements and further restoring our readiness.
    As we look for new ways to invest in future capability 
while taking some near-term operational risk, we are prepared 
to make the necessary choices that are required. We are 
increasing many levels in support of new fighters, new bombers, 
and cyber mission teams. We are funding our weapon systems 
sustainment and flying-hour programs. And most importantly, we 
are dedicating money and personnel to form the backbone of our 
newest service, the United States Space Force.
    Success in the future requires us to make difficult 
decisions today and we cannot do it alone. We ask for your help 
and continued support.
    With that, sir, I look forward to your questions.
    [The joint prepared statement of Mr. Manasco, General 
Wilson, and General Thompson can be found in the Appendix on 
page 29.]
    Mr. Garamendi. Thank you very much.
    General Wilson.

STATEMENT OF GEN STEPHEN W. WILSON, USAF, VICE CHIEF OF STAFF, 
                  DEPARTMENT OF THE AIR FORCE

    General Wilson. Chairman Garamendi, Ranking Member Lamborn, 
all the distinguished members of the committee, I, too, want to 
echo my support and thanks for all your help over the last few 
years.
    This marks my fourth consecutive year testifying before 
this committee. I have enjoyed a front-row seat on the 
readiness recovery that you all have helped enable. And I can 
honestly say that today your Air Force stands more ready than 
it has been in years, thanks in no small part to your support.
    So, I owe you my best military advice. We are ready today, 
but if you ask me, do we have the force structure we need to 
deter competitors of tomorrow, will we be ready for the threats 
appearing over the horizon, I would answer we certainly can be. 
Indeed, we must be. And with your continued support, I am 
confident we will be.
    As I reflect on all the studies we have conducted, the 
countless hours we have spent with our joint partners examining 
the National Defense Strategy, and my 39 years of experience in 
this service, there are three fundamental truths that I have 
come back to.
    The first is we cannot win tomorrow's war with today's 
force structure. Your Air Force remains too small and too 
invested in capability that was simply built for a different 
time. So, we have to modernize. If we are to modernize in a 
cost-effective, responsible way, we have to make hard choices 
now--choices on both capability for the future fight, but, more 
importantly and much more difficult, choices on the Air Force 
we can't afford and the capabilities that we must divest to 
enable the transition to a superior ready force for tomorrow. 
This budget reflects those hard choices, and we need your 
continued leadership to see those through.
    Second, modernization is critical, but it will be 
irrelevant if it is late to need. If we cede the initiative to 
China or Russia, then we play catchup for years. We are either 
leaders or followers in this competition, and history has never 
been kind to the followers in the matter of war. There is no 
question that China and Russia are moving out of pace. They 
have been informed by careful study of our way of war, and they 
continue to invest in disruptive technologies and to target the 
very core of our competitive military advantage. Unabated, this 
risks our ability to maintain a peaceful world order. Your 
support to ensure stable, predictable, and sufficient budgets 
and your willingness to support agile acquisitions that enable 
timely delivery of capability to our airmen is critical to 
keeping us ahead of the threat.
    And finally, I remain convinced that our most important 
weapon system, America's asymmetric advantage, is not hardware; 
it is our airmen. We appreciate your continued leadership and 
advocacy to ensure they remain the best trained, best equipped, 
and best led airmen in the world. We have no greater duty than 
to prepare them for the challenges of peer competition and to 
care for them and their families as they defend our freedom and 
America's interests around the globe.
    Thank you for your leadership and your partnership, and I 
look forward to your questions.
    Mr. Garamendi. Thank you, General Wilson.
    Let's go to space, General Thompson.

 STATEMENT OF LT GEN DAVID D. THOMPSON, USAF, VICE COMMANDER, 
            HEADQUARTERS, UNITED STATES SPACE FORCE

    General Thompson. Chairman Garamendi, Ranking Member 
Lamborn, and distinguished members of the committee, I am 
honored to appear before you today along with my esteemed 
colleagues and am privileged to be one of the 16,000 men and 
women currently assigned to the U.S. Space Force, serving under 
the leadership of General Jay Raymond, the first Chief of Space 
Operations. These space professionals remain the best in the 
world at developing, fielding, and operating space systems, the 
systems that maintain the combat edge of our Armed Forces and 
what they enjoy as a result of freedom of action in space.
    On December 20, 2019, the President and Congress 
established the U.S. Space Force as the newest branch of the 
Armed Forces, an historic milestone for the Nation. Building 
the U.S. Space Force is our top policy priority. The Department 
is moving quickly to stand up a lean, agile, and mission-
focused organization while we continue to develop the 
capabilities, warfighting doctrine, and expertise needed to 
outpace future threats and execute today's critical space 
missions.
    As you all know, the important question when it comes to 
readiness is, ready for what? The fiscal year 2021 space budget 
continues us on a path of irreversible implementation of the 
National Defense Strategy, which remains our guide star and our 
decision-making guide. Progress along the lines of effort in 
that document increasingly improve our ability to address near-
peer threats in space and is sustained by adequate and timely 
funding of you, our partners in Congress.
    The U.S. Space Force is pursuing a strategy to ensure we 
can deter hostile action, defend and protect our interests, 
and, if necessary, fight in, through, and from the space 
domain. This budget submission includes increased investment in 
four elements of that strategy.
    First, protecting and defending the highly capable 
satellite systems we depend on today.
    Next, fielding a robust architecture that is resilient 
under attack and delivers space capabilities through all phases 
of conflict.
    Then, developing warfighters who are the essential part of 
winning the fight in the space domain.
    And finally, developing a broad range of options to respond 
with national security space capabilities, if attacked.
    The Space Force is making significant investments to harden 
our assets and strengthen our posture in space and on the 
ground. For example, we are continually improving our space 
domain awareness network needed for the deep understanding of 
activities in space to treat it as a warfighting domain.
    Second, field and command control tools that provide both 
warfighters and commanders awareness, flexible options, and 
responsive solutions in crisis.
    In addition to that, we are modernizing vital warfighting 
capabilities, including improvements in GPS [Global Positioning 
System] anti-jam and anti-spoofing, and jam-resistant, low 
probability of intercept waveforms for the family of advanced 
beyond-line-of-sight terminals which provide nuclear survival 
communications for our Nation's leadership.
    Assured access to all orbits is also fundamental to 
sustaining the United States freedom of action in space. 
National security space launch investments in this budget 
increase competition among launch providers, eliminate our 
reliance on the RD-180 engine, and ensure the space domain 
access for all of our national security space needs.
    Likewise, the Space Force is continuing to broaden the 
space industrial base and bringing cutting-edge technology to 
space prototyping. Innovative approaches to space acquisition, 
including Space Pitch Days and the Space Enterprise Consortium, 
will reap the benefits for the Space Force in terms of 
leveraging commercial investment, accelerating new technology, 
and rapidly prototyping and acquiring new systems.
    With all of the physical assets of the Space Force and 
everything that it has to execute its missions, it is the 
people who power the Space Force and who are our most important 
asset. We are developing detailed plans, and by fiscal year 
2021, expect to transform more than 6,000 personnel into the 
U.S. Space Force. Ultimately, we will expand that cadre to more 
than 12,000 space professionals across 15 career fields to 
protect U.S. interests in space well into the future.
    Let me close by stating once again that we do not seek 
conflict in space. However, we must maintain a position of 
strength and develop a credible warfighting capability in order 
to deter conflict and maintain a full range of options to 
ensure our national security. The U.S. Space Force is taking 
the lead to preserve U.S. and allied interests to broad 
capability across the continuum of conflict and defend our 
forces, our allies, and our partners.
    Thank you again for the opportunity to testify. I look 
forward to your questions.
    Mr. Garamendi. Thank you very much.
    In my opening statement, I raised about seven, eight 
different specific issues. I won't ask those questions here, 
but I would expect in the days ahead that we would have 
response to those questions.
    I think I gave you a heads-up ahead of time. Again, I don't 
expect a response here. I know that two Air Force bases in 
California are significantly impacted by the coronavirus and 
the evacuees from various parts of the world. I would like a 
full explanation of what is going on at Travis and March Air 
Force Base, as well as the Marine Corps bases. I think there 
are other bases around the Nation. So, if you gentlemen can 
develop that and get back to us immediately about that. I will 
note that there is a public health emergency at Travis. And so, 
the question is apparent.
    I am going to go to you, General Thompson, with a quick 
question. I guess, actually, it is--well, a question. The 
California National Guardsmen are already operating space 
missions for the Air Force and for the Army, including secure 
satellite communications, space control, space operations, 
intelligence, ISR [intelligence, surveillance, and 
reconnaissance], ICBM [intercontinental ballistic missile] and 
missile defense, a major part of the space operations.
    I know you are still in the early stages. You haven't 
figured out how to integrate both the Reserve and the National 
Guard into your programs. I would urge you to keep in mind that 
these units have been operating for some time, and if 
integrated fully--that is, as a unit--I think you would be well 
served. And if you were to break them up in some way, then you 
get to start to rebuild units that are already in place.
    Bringing your attention to the 195th Wing at Beale Air 
Force Base, the 184th Space Operations Squadron, the 216th 
Space Control Squadron, the 234th Intelligence Squadron, and 
then, the missile defense programs at Vandenberg with the 130th 
Missile Defense Brigade detachment, which operates the 
Vandenberg missile defense systems, keep that in mind.
    I am going to forego any more time of my own and pass this 
to Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    I will just jump right in. For Acting Secretary Manasco, 
based on the hearing that we had on land withdrawals from 
military ranges, I have some questions about stakeholder 
outreach and the status of Air Force efforts to engage the 
Natural Resources Committee, which has primary jurisdiction on 
land withdrawals. What is the progress in both of those, 
stakeholder outreach and discussions with the Natural Resources 
Committee?
    Mr. Manasco. Congressman, we have been in active 
conversations at the national, local, and State level. And so, 
as you well know, there is a lot of conversations still yet to 
take place. I think you mentioned in your opening comments just 
how important it is that we get this right and the reasons for 
which we are seeking an expansion. But we have, like I said, 
active conversations, and if there are others that we need to 
be reaching out to that we just haven't yet, we stand ready to 
do so.
    Mr. Lamborn. Okay. And just so everyone will know on this 
subcommittee and for the record, why is the current footprint 
of the range insufficient?
    Mr. Manasco. So, Congressman, as we look at the near-peer 
competitors that we face, it is clear today that the existing 
range itself is insufficient in size, just given the training 
that occurs there and the adversary air which tries to simulate 
what we would face in a near-peer fight. The range and speed 
and distance of our adversaries is increasing. And so, 
therefore, we need to look at our range facilities with that 
lens. I would be remiss, though, if I didn't mention that, from 
our perspective, these ranges are truly a national treasure, 
and we want to do everything possible to ensure public safety 
and to leave them in a really great condition.
    Mr. Lamborn. Okay. And I do realize we are in open session 
and we can't go into all the details, but I appreciate that 
answer.
    Changing gears, during my recent visit--and I was with 
Representative Scott of Georgia as well--we went to Warner-
Robins Air Force Base and saw the depot there. I was very 
impressed with the quality and effort of the industrial work to 
maintain Air Force aircraft, but I am concerned about the state 
of the facilities. My understanding is that the Air Force's 20-
year recapitalization plan will cost about $26 billion. How are 
we going about committing that amount of money each year to 
achieve that goal?
    Mr. Manasco. Congressman, over the last few years, we have 
committed upwards of $2 billion for the modernization, 
recapitalization of these depot facilities. And it should be 
noted that we really do admire and appreciate and respect the 
skilled professionals that occupy these depots and do work on 
behalf of the Department of the Air Force. And so, they are of 
vital importance to us. And lastly, we are committed to living 
up to the 6 percent statute to be able to fund, again, their 
recapitalization in the future.
    Mr. Lamborn. Okay. And during our last depot hearing in 
November, the Air Force talked about having the benefits of 
direct hiring authority, but also about the negative impact of 
the 180-day military retiree waiting period requirement. If we 
were to remove that waiting period at least for certain 
positions--let's say GS-13 and below, not for the highest 
grades, but for GS-13 and below--how would that impact the 
mission capabilities and being able to hire the right people at 
your depots?
    Mr. Manasco. I will just make mention of one thing, and I 
think I will turn it over to General Wilson. I think he has a 
point of view on this.
    But, Congressman, we would support any help that you and 
your colleagues might give us to be able to hire those 
individuals directly without waiting 180 days. As it turns out, 
in a very tight labor market, if we are not careful, we will 
let those highly skilled people get hired by someone else.
    Mr. Lamborn. General.
    General Wilson. Congressman, I would echo the same thing. 
We are in a competition for talent. Anything that slows us down 
from bringing talent onboard lets them go somewhere else. So, 
as we try to close that gap, we want to look for all the 
authorities to bring on people as quickly and as fast as 
possible. And I will give you the good news story. We have done 
just that with your help. So, some of your direct hiring 
authorities have allowed us to bring on people much faster, and 
we would say maybe in the future we can work with the committee 
to see where we could expand that more broadly to bring on 
talent even quicker.
    Mr. Lamborn. Okay. Thank you. Maybe we can address that in 
this upcoming NDAA [National Defense Authorization Act].
    And lastly, for General Thompson, my understanding is that 
the Space Force currently has one member, General Raymond, but 
we will be gaining 60-some new officers when they graduate from 
the Air Force Academy in May. You did a good job in your 
statement of explaining the future missions of the Space Force, 
but when it comes to making sure that we get the most for our 
dollars, can you talk about how the Space Force will leverage 
existing Department of the Air Force overhead and support 
functions, so that we can minimize the duplication of 
bureaucracy?
    General Thompson. Yes, sir. Thank you. And if I can, before 
that, I will say there are 16,000 other of us assigned, not yet 
transferred into, but anxiously looking forward to the day when 
perhaps we can join him as commissioned and enlisted members of 
the Space Force as well.
    And as you stated exactly, we are very much focused on 
creating the Space Force in a lean, agile, and very mission-
focused sense. What that means is, the Space Force itself will 
focus on developing, acquiring, fielding, and operating space 
capabilities. That includes an intelligence enterprise required 
to conduct operations in space as well as focused cyber 
warriors who will operate and defend and protect our cyber 
mission systems in space.
    Most of the remaining support will be provided by the 
Department of the Air Force and the United States Air Force in 
a similar manner to the way they do it today. Base operating 
support, physical security, civil engineering, our chaplains 
and JAGs [Judge Advocate General's Corps] and personnelists, 
all of that will continue to be provided by the United States 
Air Force, so that the U.S. Space Force can focus on its 
mission. Our estimate today, when we look at the support 
functions and field agencies and other activities required to 
operate the Space Force, about 80 percent of that activity will 
continue to be provided by the U.S. Air Force under the 
leadership of the Secretary and the Department, while we focus 
on operations and the critical needs in space.
    Mr. Lamborn. Along that line, I am sure there are thousands 
of decisions that have to be made. General Wilson, how are 
these decisions coming along, according to what Lieutenant 
General Thompson just said?
    General Wilson. What I think you are seeing is a seamless 
integration between air and space, and we are going to continue 
to remain so. The Secretary has been very clear that that is 
her number one priority, is to make sure that the Space Force 
is successful, and we are going to do everything we can to do 
just that.
    Mr. Lamborn. Thank you. Mr. Chairman, I yield back.
    Mr. Garamendi. Thank you very much.
    I had raised the issue of the coronavirus. The 7th Air 
Force I think is in the hot zone in Korea and other places. So, 
if you could by Thursday report back to us on what is 
happening, what your plans are, and so forth?
    Mr. Manasco. Yes, sir.
    Mr. Garamendi. Okay. Thank you.
    Ms. Haaland.
    Ms. Haaland. Thank you, Chairman Garamendi.
    And thank you, gentlemen, for the opportunity to speak 
directly to you on critical Air Force and Space Force readiness 
matters.
    General Wilson, I am pleased to see that building a 
seamless, integrated joint force is the top focus area noted in 
your memo for achieving the ready and modernized force we need. 
We all recognize the need to fully use our National Guard and 
Reserve and the value that investment brings to protecting our 
Nation, our States, and our local communities. In my district, 
we have many resources, including a very nice, open ramp space, 
ops facility, and hangars where the famous F-16 Tacos once 
resided. That ramp space could add significant value toward 
military readiness and leverage the synergies between three 
special operations wings stationed in New Mexico. What are some 
of the best opportunities you see for the Department to tap 
into these kinds of resources and fully integrate the joint 
force?
    General Wilson. Congresswoman, as you know, across the 
whole force, we can't do any mission without the total force. 
It takes the Active, Guard, Reserve across air, cyber, space, 
and all the missions across the different pieces of that. The 
Chief were to say, if he were to go fly in a C-17 today in the 
Middle East, he couldn't tell if it was Active, Guard, or 
Reserve because they are all there and they are doing that 
seamlessly.
    So, we continue to look for missions in New Mexico which 
the Guard could be a significant part of. They are in every 
mission area, and I think there will be opportunities in the 
future which we can continue to look for opportunities for New 
Mexico to do that.
    Ms. Haaland. Thank you. I appreciate that commitment.
    General Thompson, it was noted in the very recent report to 
the committee that the DOD [Department of Defense] intends to 
establish several Space Force Centers or center equivalents to 
execute space-unique functions that will be, quote, ``co-
located with Air Force counterpart Centers to the maximum 
extent practicable in order to leverage existing infrastructure 
and resources.'' I will note that my district is home to 
critical Space Force assets on Kirtland Air Force Base, such as 
the Space and Missile Center, Advanced Systems and Development 
Directorate, Space Rapid Capabilities Office [RCO], and key 
Space Force partners like the Air Force Research Labs, Space 
Vehicles, and Directed Energy Directorates. Given all those 
obvious synergies, would I be correct in thinking that bases 
like Kirtland with its cutting-edge space capabilities would be 
on the short list?
    General Thompson. Yes, ma'am. I would like to say, as you 
listed, there are a tremendous number of capabilities at 
Kirtland Air Force Base today. It is a national center when it 
comes to science and technology research and development. You 
listed the Research Lab, our Advanced Development Division, and 
the Space RCO. Kirtland plays a tremendous role, and has for 
many years, in terms of prototyping, researching, and 
delivering new space capabilities for the Nation. I have no 
doubt it will continue to play that role for the Space Force 
and well into the future.
    Ms. Haaland. Thank you. Thank you for that.
    And how much time do I have?
    General Wilson, as the chairwoman of the National Parks, 
Forests, and Public Lands Subcommittee, I am paying close 
attention to the Department's proposals that impact public 
lands that have great environmental value and are key to 
preserving irreplaceable Native American cultural resources and 
tribal history. In your view, can the proposed expansion of the 
Nevada Training and Testing Range be carried out in a manner 
that both enhances military readiness and is compatible with 
stewardship of natural and cultural resources? And what are you 
doing to ensure that Native perspectives on this issue are 
fully considered?
    General Wilson. Congresswoman, the short answer is, yes, I 
think we can. We have to work together. Your local and tribal 
communities have to be part of the discussion/conversation, and 
I think we can effectively do that to preserve all the things 
you just mentioned while we also expand the airspace to allow 
the type of training we need for peer competition.
    Ms. Haaland. Thank you so much. And since I have just a few 
seconds left, I will ask, while there is a clear readiness 
argument for the expansion, there are also significant concerns 
for many sectors. Can the expansions be phased in to allow time 
to work through the issues with other stakeholders, in your 
opinion?
    General Wilson. Yes, I think they can be phased in.
    Ms. Haaland. Thank you. Chairman, I yield.
    Mr. Garamendi. Thank you.
    General Thompson, let me compliment you on the very adroit 
dance that you made in answer to the woman's testimony.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    General Wilson, there has been some discussion about 
pursuing a long-term, performance-based logistics [PBL] 
contract for the sustainment of the F-35. Can you share your 
thoughts about that, any concerns you may have with things like 
intellectual property and data rights?
    General Wilson. Yes, Congressman, I am not sure we have the 
data yet to be able to jump into a long-term, performance-based 
logistics contract. But, sir, we will work with the JPO [Joint 
Program Office] and all the stakeholders as we get better 
insights into the data to be able to make a better decision on 
PBL going forward.
    Mr. Rogers. So, that is a longer range possibility?
    General Wilson. I believe so.
    Mr. Rogers. Great.
    General Thompson, you will be pleased to know I am not 
making a pitch for a headquarters in my district.
    [Laughter.]
    However, you know, if you want to.
    [Laughter.]
    One of the things that drove us to create the Space Force 
was in the Air Force there is a culture that is indoctrinated 
in every service member that you start, from the time you join 
the Air Force, that your number one mission is air dominance, 
and it should be; it is the Air Force. How can you ensure that, 
as you stand up this new service, that you can indoctrinate 
that same mission priority of space dominance into the new 
members of the Space Force? And it is a cultural thing.
    General Thompson. Congressman Rogers, thanks so much for 
that question. In fact, we have for decades been developing a 
space culture and we have a space culture inside what was once 
the United States Air Force and is now the United States Space 
Force. That culture, however, was developed in a different time 
in a different area for a different set of missions in a 
different environment. It has only been in the last 6 or 7 
years where we have truly embraced and understood the threat we 
face in space, and so, have begun already developing the 
culture that is truly a warfighter's culture. And there are 
several ways that we have done it.
    The first is, and obviously was, the acknowledgment of the 
leaders and the Nation that it was a warfighting domain. The 
next thing we did is we have already overhauled our training 
system. Our training system is now focused on threats in space, 
the development of tactics, techniques, and procedures to 
address those threats, and ensuring we can deliver capabilities 
across all of the spectrum of conflict.
    We have also more closely integrated ourselves with other 
warfighters, first, in the Air Force through Red Flag and some 
of the advanced training exercises we do, but also the joint 
force through Tier 1 exercises. I will argue there is great 
value in understanding the cultures of other warfighters, other 
warfighters that they, themselves, have different cultures, but 
understand what it means to develop a plan, to understand your 
role in the plan, how you are going to develop contracts with 
other warfighters. And that has been of value as well.
    Mr. Rogers. Yes, I was very pleased--and the committee will 
be interested to know--in talking with General Raymond a couple 
of weeks ago, I had mentioned, because Air University is in 
Alabama, that I thought that we should enhance their space 
curriculum and rename it Air and Space University. And he 
gently pushed back and said, no, we want our own university.
    General Thompson. Yes, sir.
    Mr. Rogers. And we will still use the Air Force Academy as 
our service academy, but, as far as continuing education. And I 
think that is a great example of saying, no, I want to build my 
own culture.
    General Thompson. Yes, sir, and we have created our own 
Space flags and we have our own war games. Those are the sorts 
of things we must continue to do.
    Mr. Rogers. Okay. Lastly, you talked about growing the 
number of professionals over the time by 12,000. Is that 
civilian personnel you are talking about?
    General Thompson. Sir, that's all, all of the above.
    Mr. Rogers. Okay.
    General Thompson. Right now, in fiscal year 2021, we plan 
to transfer in--I am sorry, let me make sure I have got the 
numbers right; I have got them written down--in 2021, it is 
about 3,500 civilians and it is 6,430 military. Over the course 
of the Future Years Defense Program, it is going to be about 
8,100 military and 4,200 civilians. So, it is a mixture, as you 
see, to get to that 12,000. It will be both.
    Now I should also say civilians will be assigned to the 
Space Force. Like in the Department of the Navy, all civilians 
will be Department of the Air Force civilians, but they will be 
assigned in the Space Force.
    Mr. Rogers. Great. Thank you for your service.
    And I yield back.
    Mr. Garamendi. Mr. Rogers, in answer to your question, my 
grandson, I asked him last week where he intended to go to 
college. He is a senior. And he said, ``Wherever I can get the 
best education to get into the Space Force.''
    [Laughter.]
    Ms. Horn.
    Ms. Horn. Thank you very much, Mr. Chairman.
    Thank you, gentlemen, for being here with us today and for 
your testimony.
    I also want to commend Congressman Rogers and also 
Congressman Cooper for the work they did on the Space Force and 
outlining the importance of standing up the Space Force. I will 
get back to questions about that in a minute, but I think there 
is a lot more work to do to help people understand, and the 
general public, as well as to support you all in standing this 
up.
    But I want to start at readiness and the tankers and KC-
135, KC-46A, and what we are looking at there. As you know, 
Tinker Air Force Base, right there at the edge of my district 
in Oklahoma City, is the home to maintenance and refurbishment 
of the ongoing KC-135 and will be with KC-46A. But, quite 
frankly, we have got a number of concerns about the readiness 
and what that looks like for our tanker program because the 
budget request includes retirement of 10 KC-10s and 13 KC-135 
aircraft. Knowing that these aircraft are 70-plus years old, 
and the civilian contractors, the individuals, armed services 
at Tinker do an amazing job of refurbishing these aircraft, it 
is remarkable that they are still flying, and we have to 
continue to keep them up.
    But, with the challenges with the KC-46A tankers, I am 
concerned about this proposed transition and retirement of the 
13, and just saw an article from--let's see, I just opened it 
up--the Air Force Magazine that came out about the testimony in 
front of the Senate, that until the RVS challenge is fixed, the 
Air Force is not going to commit to using the KC-46As. So, I am 
concerned about the readiness issue there. I would like to find 
out--and I will start with you, Mr. Secretary, or whoever is 
most appropriate--is there a plan to put more KC-135s through 
the modernization process to help prevent this gap? Or what is 
our contingency plan here?
    Mr. Manasco. Ma'am, yes, we are investing in that platform 
to modernize it. And ultimately, our goal is to get down to a 
two-tanker fleet. Like many of our other weapon systems in this 
budget, we had to take some risk. And so, we are actively in 
conversations with General Lyons in TRANSCOM to make sure that 
we can do everything we can to cover the needs of that 
combatant commander.
    I will make note of the KC-46. I had the opportunity to be 
on that platform roughly 2 months ago, and I saw it at its best 
and I saw some of the limitations firsthand. We are in active 
conversations with Boeing on what a permanent fix might look 
like and we look forward to being able to continue to make 
progress. And ultimately, if we were to have to go to war 
tonight, General Miller, I think as you probably may have 
heard, has said that she would put that tanker in a fight.
    Ms. Horn. Thank you.
    And following up on readiness and the impact of tankers, 
but also pilot shortage, let's talk about that. I happen to 
agree--I was nodding my head intensely--with both opening 
statements of the chair and the ranking member. I think we are 
very much aligned. With the 2,000-pilot shortfall across all 
airframes and the reduction in intended pilots, that seems to 
be going in the opposite direction with the need for more 
pilots. As you look at this issue, how do you plan to bridge 
that gap when this proposed FY21 [fiscal year 2021] reduces the 
number of pilot slots?
    General Wilson. Congresswoman, let me assure you we are not 
reducing the number of pilots that we are trying to build. We 
actually have a really good news story. In 2015, we graduated 
about 1,000 pilots. In 2019, we graduated almost 1,300, and we 
will graduate a little bit more than that in FY20 [fiscal year 
2020]. Our goal is to get to almost 1,500. So, we have seen a 
30 percent increase in the pilot production over the last 3 
years, thanks to your help. And we are on a path to be able to 
continue that to get towards 1,500, which we think we need. 
This is a national problem, though. Between all the services, 
we are going to produce 2,200 pilots and the airlines are going 
to hire 5,000. So, that is the challenge we face.
    Our Training Command has done some remarkable work in terms 
of what they call Pilot Training Next. And so, it is where they 
go to student-focused curriculum that is individualized and 
using augmented reality and virtual reality to help not only 
make it better, but also make it faster. So, we think there is 
great potential in that. We are now on to the next phase of it. 
We are going to try to scale that across all of our UPT 
[Undergraduate Pilot Training] bases starting this next year.
    But we, too, are concerned on being able to produce the 
number, but then the next part is I have got to be able to 
season them with the right flying hours, and then I have got to 
retain them on the back end in this process. We have got 
efforts underway on the production, the seasoning, and the 
retention of our pilots.
    Ms. Horn. Thank you, General.
    I guess, General Thompson, I will have to follow up on 
questions later for the Space Force.
    Mr. Garamendi. Mr. Scott.
    It may be the coronavirus and the slowdown in the airline 
industry might help solve your problem.
    Mr. Scott. Thank you, Chairman.
    Mr. Secretary, you are a West Point grad. That makes you 
Army.
    [Laughter.]
    Mr. Manasco. Sir, some have said I have traded up.
    [Laughter.]
    Mr. Scott. I have got some family members that would argue 
with you.
    But I share Congressman Rogers' concern about the focus on 
air dominance for our troops on the ground. I have watched as 
the Air Force has tried to get rid of the A-10, has terminated 
the JSTARS [Joint Surveillance and Target Attack Radar System] 
recap [recapitalization]. And I am going to come back to the 
ABMS [Advanced Battle Management System] system in a minute. 
But I am very concerned that, if it is going to be the command 
and control platform for all of the branches, that especially 
the Army has not been involved in the development of that 
platform. And now, as I understand it, Army Futures Command has 
expressed very serious reservations about whether or not ABMS 
can be the sole command and control platform for the U.S. Army.
    But you made a statement in the first part, ``stable and 
predictable budgets''. The Air Force has asked to pull the base 
budget down. And this is the first time I have ever seen any 
agency or branch do this. You have asked to reduce your base 
budget by about 20 percent on the Active Duty Component and 
increase the OCO funding by almost--you almost double it. I 
mean, you increase it by 80 percent, and you are effectively 
moving 50 percent, if my calculation is correct, approximately 
50 percent of weapon systems sustainment to the OCO budget. 
What is the reasoning for this? From the weapon systems 
sustainment standpoint, this is contrary to what you would want 
if you wanted ``stable and predictable budgets.''
    Mr. Manasco. Sir, let me start by saying, yes, as a young 
man, I was a soldier and my middle son is a soldier. And so, 
the efforts that we have underway with ABMS, we are absolutely 
committed to making sure that we do what we have to do to 
support troops on the ground. So, I wanted to start there. That 
is important to us and, by design, it will be just that. And we 
will work very closely with our sister services to bring this 
concept of JADC2 [Joint All-Domain Command and Control] to 
life.
    Mr. Scott. Yes, and if I may, Mr. Secretary, my point is 
they need to be involved in the development from the ground, 
from the ground up.
    Mr. Manasco. We couldn't agree more.
    With respect to the overall budget, sir, our budget in the 
Department of the Air Force is roughly $169 billion, and a 
little over 15 of that, yes, is in space. And so, we submitted 
for the very first time the Space Force budget. And we are 
committed to weapon system sustainment [WSS], but, as you may 
know, to look at the requirements 2 years out in front, we have 
to make some educated guesses around what those requirements 
might look like. But in this budget we have over $17 billion 
set aside for the WSS account.
    Mr. Scott. But the majority of that, at least 50 percent of 
that is in the OCO section, correct? Over $8 billion of the $17 
billion has been moved to overseas contingency operations, 
which actually makes it, quite honestly, more subject to 
reductions. Most agencies want a higher base budget and less 
OCO because, from a long-term planning standpoint, it is just 
more stable and helps you plan for the future. OCO is something 
that may happen or may not.
    Mr. Manasco. Sir, on those numbers, I just want to make 
sure that we have the exact same ones. And so, if it is okay, I 
might come back to you. Because you raised a really good 
question, but I think there might be some confusion in the 
numbers themselves.
    Mr. Scott. Okay. So, I am happy to take the answer. I am 
looking at a base budget for 2020 of $42 billion; base for 2021 
requested, $34 billion. OCO, and the center of the Active Duty 
Component, OCO for 2020 is $10.3 billion; OCO for 2021, $17.9 
billion. And then, the explanation, the majority of that plus-
up is a transfer from weapon systems sustainment. I am happy 
for the Air Force to get back to me with a more detailed 
answer. But, typically speaking, base budget is better than 
OCO.
    Mr. Manasco. We will take that, sir, and come back to you.
    [The information referred to can be found in the Appendix 
on page 45.]
    Mr. Scott. Thank you.
    Mr. Garamendi. Mr. Scott is into a very important issue 
about where the money is coming from. The OCO account, he 
correctly points out, is used for sustainment. The question is, 
why that? How do you intend to transition away from that in 
your base budget?
    Those are all questions that we would expect to get back. I 
know the staff is going to be coming to you with a series of 
questions along that line. Also, with regard to the weapons 
account and your balance, how you deal with that. It has been 
drawn down. You are going to rebuild it. There are some issues 
about the flow of money in and out of accounts. So, staff is 
going to go into that in great detail.
    Mr. Bergman.
    Mr. Bergman. Thank you, Mr. Chairman.
    And we will start out a little bit light here in the mood 
on the front end. I noticed that recently the Space Force has 
figured out their camo [camouflage] uniform. And so, the only 
thing I would suggest you can call what you are wearing today 
is service dress alphas. That is what we call them in the 
Marine Corps. I applaud our brothers in the Army for making the 
decision to go back to a World War II era of the belt because 
in a real sense, but also what we talk about here is limited 
resources, a belt well-worn shows where the excess is. The 
point is, on this committee, we look to where we are spending 
our money, where we are appropriating the money, and then, you 
are spending the money, and where we can be a partner with you 
to help you achieve your mission accomplishments. So, we are in 
a situation where belt tightening has to happen from time to 
time. So, just consider that as the Space Force when you are 
considering your service alphas. A well-worn belt would look 
probably pretty good.
    Now I know we have heard a little bit of comment about 
where you might want to put some headquarters other than 
Colorado Springs. I am not suggesting we don't put it there. 
But I guess, as you look at Space Force, are there any 
opportunities or considerations for, let's say, a northern tier 
presence as we look at things, not building new bases 
necessarily, but using capabilities that already exist to look 
at what you are going to be doing as a Space Force to counter 
hypersonics, which is horizontal launch or difference in 
vertical launch or telemetry as you are matching the satellites 
with autonomous vehicles on the ground or anything like that? 
Is there anything that you care to share with us at this end as 
far as the future?
    General Thompson. Congressman, yes, if I can. In fact, as a 
result of the establishment of the Space Force, and as we 
develop the organizational structure associated with the field 
commands, what we have done, in essence, with that and with 
headquarters U.S. base command basing, is we are now going to 
take a holistic look at all of the potential options, all the 
potential locations. We have been directed to go back, open up 
the aperture, and look at all of them. And so, that includes 
bases. It includes perhaps some non-traditional locations. We 
will absolutely establish the criteria we need for each of 
these organizations and, then, base them accordingly.
    Mr. Bergman. Yes, is one of those criteria going to be 
potentially not necessarily co-locating with, but at least 
sharing facilities with commercial space?
    General Thompson. Sir, we are going to develop all of those 
criteria. Some of those may be exactly opportunities with 
commercial space. They may be opportunities with civil space. 
Certainly they will be opportunities with the Air Force, 
perhaps other organizations. Absolutely, we have been 
challenged by our leadership to look at that whole problem a 
little differently than we have in the past.
    Mr. Bergman. Okay. I look forward, as you move forward with 
those decisions, in how you are going to marry in the public 
and private sector, if you will, to get the capabilities up to 
speed as quickly as possible, leveraging in this case private 
sector technologies.
    I want to switch subjects here for my last few seconds. 
This budget request increases pay for flying hours to $6.6 
billion. What does this equate to in average monthly flying 
hour per pilot? Can anybody throw that out there? And is that 
enough to maintain proficiency?
    General Wilson. Congressman, I can't give you an exact 
specific, but I can tell you over the last few years we have 
seen flying hours increase from about 15 hours per month now to 
about 19 to 20 hours per month.
    Mr. Bergman. Now that is seat in the airframe?
    General Wilson. That is seat in the air.
    Mr. Bergman. Okay. And how many simulator hours is that 
pilot getting a month to, let's say, do the mission prep, all 
of that, in the simulator, where it is a whole lot cheaper and 
a better training environment, then, before they strap it on 
and get airborne?
    General Wilson. Congressman, we are balancing both, right? 
Because we are also upgrading our simulators to be able to do 
this, so I can connect virtually and actually do large force 
exercises connected and distributed through simulators. And so, 
simulators and moving forward with our sim infrastructure is a 
big part of it. But we are balancing both to be able to do it 
in sim as well as there is nothing like doing it in the air 
real time.
    Mr. Bergman. Yes, and we are in an unclassified setting 
here. So, you know that the training and capabilities that we 
are going to need in our pilots with airframes or flying like 
the F-35 and others, whether they be manned or unmanned, the 
best training initially to get them--the ``switchology,'' if 
you will, or ``thinkology,'' or whatever you want to call it, 
is going to be the first phase in the simulator.
    And I am pretty sure you would agree with this, that you 
can create an airframe quicker than you can create an 
experienced pilot.
    General Wilson. I agree.
    Mr. Bergman. Okay. So, as we go forward in pilot retention, 
knowing that the market for commercial pilots is going to be 
good and the family always gets a vote, as we leverage that 
experienced pilot and keep them in a seat, whether it is in a 
Guard, Air Guard unit, whether it is in an Air Force Reserve 
unit, whatever it is, I want to compliment the Air Force for 
when you went with the associate squadrons well over a decade 
ago because that is the model going forward.
    With that, Mr. Chairman, I yield back.
    Mr. Garamendi. Thank you.
    I want to ask you a question, sir: where you learned in the 
Marine Corps about the purpose of a belt?
    [Laughter.]
    Mr. Bergman. Our Class A uniforms have always had an 
external belt. Since the Navy is not here to defend themselves, 
I am just going to have a Marine, since we are both, by the 
way, Department of the Navy--so, by the way, if the Space Force 
wants any tips and tricks about dealing as a department within 
a bigger department, the Navy wears the double-breasted navy 
blue coat.
    Mr. Garamendi. Yes.
    Mr. Bergman. And sometimes it is a good camouflage in its 
own right. Whereas, the belt on the Marine Corps, we are a very 
physical service. So, that is where I was going with the belt.
    Mr. Garamendi. I appreciate the information. It is 
invaluable.
    [Laughter.]
    Gentlemen, we have another hearing going on simultaneously 
which two of us or three of us should be attending.
    There are a series of questions. I draw your attention to 
Mr. Lamborn's opening statement in which he raised several 
points, as did I. We have concerns about all of these issues. 
Staff will be back with you. And the questions I have asked, 
one of them is very timely, the corona, how it affects our 
readiness. I mentioned Korea; Italy, the United States, and so 
forth. So, please get back to us with that. And at this point, 
this meeting is adjourned.
    [Whereupon, at 3:16 p.m., the subcommittee was adjourned.]



      
=======================================================================



                            A P P E N D I X

                             March 3, 2020

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 3, 2020

=======================================================================

      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 3, 2020

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. SCOTT

    Mr. Manasco. The Air Force allocates Weapon Systems Sustainment 
Enduring OCO funding proportionally across weapon systems supporting 
contingency operations; in FY21 enduring OCO accounts for $2.1B across 
the department. Additionally, OSD directed the Department of the Air 
Force to transfer an additional $8.9B of Base requirements to OCO as 
part of the FY21PB submission, to comply with the Base/OCO topline 
split in the Bipartisan Budget Act.   [See page 17.]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 3, 2020

=======================================================================

      

                  QUESTIONS SUBMITTED BY MR. GARAMENDI

    Mr. Garamendi. Despite a Bipartisan Budget Agreement providing 
planning certainty to the services, the Air Force appears to continue 
relying on OCO to fund base activities. The FY2021 budget request 
reflects this by putting nearly $8.8 billion associated with Weapon 
System Sustainment in the OCO request. With the Bipartisan Budget Act 
expiring at the end of FY2021, can you describe how the Air Force will 
put discipline back into the budget process to program enduring 
requirements in the base request?
    Mr. Manasco. $8.86 billion was originally programmed as a base 
budget requirement, but was later moved to OCO as part of a DOD-wide 
decision in order to comply with the Base/OCO topline split in the 
Bipartisan Budget Act. The Department of the Air Force programs Weapons 
System Sustainment within the same disciplined process as the rest of 
the base budget requirements, and will continue to work within DOD 
guidance to build our FY22 request.
    Mr. Garamendi. The FY21 budget request would result in the 
retirement of 10 KC-10 and 13 KC-135 aircraft. U.S. Transportation 
Command has consistently expressed concerns about the capacity of the 
tanker fleet to meet operational demands, and included the restoration 
of these 23 aircraft in their Unfunded Priorities List. Can you please 
reconcile the Air Force budget decision to retire these aircraft given 
the warfighter requirement and the programmatic delays in the KC-46 
program? What is Boeing's plan to resolve the performance issues with 
the Remote Visual System and when can we anticipate that the issue will 
be resolved?
    Mr. Manasco. Our decision to retire legacy tankers was one of the 
two hardest decisions we made at the endgame of our service budget 
deliberations. The situation with the tanker portfolio is 
representative of the classic tension between a combatant commander 
that's looking at a two-year problem to solve, and a service trying to 
build a force that wins in 2030. That tension has always been there, 
and always will be there. We looked across the portfolio of tankers, 
and took into account the congressional mandate that we never go below 
479. The divestiture numbers we're asking for in the case of KC-135 
represents 3 percent of the overall KC-135 fleet. In order to mitigate 
the risk to the combatant commander, we committed to him and to the 
Secretary of Defense, that if we go into a high-end contingency, we 
will put every KC-46 we have into the fight. The risk and mitigation 
will be in place until the KC-46 comes online, which we expect to be in 
FY23 to FY24. We are still negotiating with Boeing on the technical 
scope of the remote vision system deficiency resolution. This is a 
hardware problem requiring a hardware fix. We are targeting the FY23 to 
FY24 timeframe to have the fix in place. We will provide updates as we 
know more.
    Mr. Garamendi. In order to address retention issues, the Air Force 
has been looking at the criteria by which they make basing decisions 
with an eye towards including portability of professional licensure for 
military spouses and the quality of the public education system around 
installations, can you tell us more about how the Air Force plans to 
implement these additional criteria?
    Mr. Manasco. This Support of Military Families initiative is 
integral to our retention, recruitment and readiness goals. Starting in 
Spring of 2020, the Air Force plans to consider licensure portability 
and public education quality in our basing decisions. The Air Force 
recently shared our evaluation criteria and methodology with Congress, 
state and local communities. The public education framework will 
evaluate public school districts' educational aspects and ability to 
support transferring military children in Pre-kindergarten through 12th 
Grade near Air Force installations. The licensure portability framework 
will be used to assess state laws, governor's executive orders, and 
state Supreme Court or bar association rules and the ability for an 
area to accommodate licenses earned from other locations.
    Mr. Garamendi. Can you please define the impact that border wall 
reprogramming actions had and will have on Air Force readiness? What is 
your plan for projects that were deferred by last year's 10 U.S.C. 2808 
notification, seeing as how you will not receive a backfill for these 
projects?
    Mr. Manasco. Thus far, deferral of projects for the border wall has 
had minimal impact on readiness. A majority of projects deferred were 
MILCON recapitalization, replacing existing infrastructure that is 
exceeding its design life. These facilities will, in the interim, 
continue to be sustained with AF O&M funds to prevent any immediate 
readiness impacts. All deferred projects remain important to the AF. 
Going forward, we will work with OSD regarding how best to address the 
deferred projects.
    Mr. Garamendi. You under-executed flight hours in 2018 and 2019, 
resulting in a substantial depletion of your Working Capital Fund. How 
are you doing with FY2020 flight hour execution? Is the Working Capital 
Fund issue getting worse? Will the extra Flight Hour Program funds in 
your FY2021 request solve the issue, or can we expect to see another 
reprogramming request this year?
    General Wilson. The Air Force has executed $2.45B or 31.1% of its 
FY20 Enacted FHP budget ($7.9B) through the end of January 2020. We are 
slightly under execution goals, but we typically see increased flying 
hours in the spring. Air Force Working Capital Fund (AFWCF) currently 
remains an issue. The Air Force plans to maintain the solvency of the 
AFWCF in FY20 through a number of actions, which will require a cash 
infusion. Ultimately, we will restore the health of the AFWCF through 
our FY21 PB request in two ways: 1) Our FY21 Flying Hour Program (FHP) 
request (in terms of hours) was reduced to essentially the FY18 & FY19 
actual hours flown, which will alleviate the likelihood of any 
underexecution, and 2) Our FY21 FHP request includes substantial WCF 
rate increases to enable AFWCF revenue recovery and alleviate future 
year solvency concerns.
    Mr. Garamendi. You are not meeting your own readiness standards, 
yet the Air Force only funds the Weapon Systems Sustainment accounts at 
87% of the requirement. How will you generate more readiness while not 
fully funding these accounts? Are you funding to maximum executable? 
What are your barriers to increasing maximum executable in these 
accounts?
    General Wilson. 87% funding enables the Air Force to sustain 
targeted readiness gains through depot-level operations. Other ``levers 
of readiness'' such as the flying hour program contribute to building 
AF readiness. To generate more readiness with available funds, the Air 
Force is pursuing key initiatives such as predictive maintenance and 
the Strategic Sustainment Framework. The Air Force does not fund Weapon 
Systems Sustainment at a maximum executable level. Currently, 94% is 
the maximum level, but could incrementally increase 1% each year to 
97% through responsible and consistent funding growth. Barriers to 
increasing to maximum executable include the need to balance near-term 
risk between readiness, future capability, and modernization within top 
line/resources.
    Mr. Garamendi. In your view, can the proposed expansion of the 
Nevada Training and Testing Range be carried out in a manner that both 
enhances military readiness and is compatible with stewardship of 
natural and cultural resources?
    General Wilson. Absolutely. The Air Force has extensive 
environmental and cultural resources programs for the Nevada Test and 
Training Range (NTTR). We will not only continue but expand these 
programs. The Air Force spends, on average, over $3.5M annually on the 
NTTR environmental and cultural management activities. The proposed 
expansion meets AF needs without adversely impacting the treasure that 
is the Desert National Wildlife Range.
    Mr. Garamendi. The Air Force proposes a huge expansion of the 
footprint of the Nevada Training and Testing Range? While there is a 
clear readiness argument for the expansion, there are also significant 
concerns from many sectors. Can the expansions be phased in to allow 
time to work through the issues with other stakeholders?
    General Wilson. The NTTR is currently over capacity and without an 
expansion will fail to meet military training requirements. We cannot 
train like we fight or use the southern range for large training 
events, such as Red Flag, with advanced weapons systems. The Air Force 
has engaged extensively with other stakeholders and will continue to do 
so moving forward.
    Mr. Garamendi. Given your service's budget priorities, what is your 
target F-35 cost per flight hour (CPFH) that allows you to afford this 
aircraft? When do you need to achieve this target CPFH to validate your 
programming assumptions across the FYDP? What is your service doing to 
reduce F-35 sustainment costs to help achieve the target CPFH?
    General Wilson. The Air Force established the following F-35 CPFH 
goals for 2025: Threshold $29K CPFH and Objective $25K CPFH.
    The Air Force is assisting the Joint Program Office in sustainment 
contract negotiations to reduce demand for parts and labor to drive 
down costs.
    Mr. Garamendi. There has been some discussion about pursuing a 
long-term Performance Based Logistics contract for the sustainment of 
the F-35. Can you provide your views on this proposal, especially in 
light of any concerns you may have given current performance of F-35 
sustainment and questions regarding intellectual property and data 
rights? Are you comfortable that you understand enough about how F-35 
sustainment costs will impact the Air Force, and do you have any 
thoughts about how we can transition more of the responsibility for F-
35 sustainment to the services?
    General Wilson. The Air Force doesn't believe we have sufficient 
data to make an informed decision on a Performance Based Logistics 
(PBL) contract at this time. We continue to work with OSD and the Joint 
Program Office to gain the necessary data that will provide the 
analytical rigor necessary to support any potential future OSD decision 
regarding a PBL approach.
    Working closely with the Joint Program Office, the Air Force is 
exploring areas where future organic (vice industry) management may be 
more viable/cost effective.
    Mr. Garamendi. What are your top three priorities in standing up 
the Space Force? What are the opportunities and challenges?
    General Thompson.
    <bullet>  Space missions are vital to national security and our 
space forces play an integral role in all-domain operations as part of 
the Joint Force today. Our first priority is ensuring the execution of 
space operations globally continues without degradation due to 
transition activities.
    <bullet>  We must develop mission focused capabilities. The Space 
Force is being stood up to organize, train and equip to provide freedom 
of operation for the United States in, from, and to space and to 
provide prompt and sustained space operations in a distinct warfighting 
domain; we must develop space warfighting doctrine, education, 
training, and space tactics, techniques, and procedures.
    <bullet>  The Space Force will be lean, agile and mission-focused 
to minimize cost and overhead. We are taking a ``clean sheet'' approach 
to infuse innovation and improvement, streamlining processes to reduce 
costs, save money, and appropriately steward Department resources.
    Mr. Garamendi. How do you ensure that the Space Force can foster a 
culture that provides the skills and focus necessary to increase 
readiness for space as a warfighting domain and gives us the tools and 
framework to deter conflict in space?
    General Thompson. Fostering a culture starts with domain-specific 
training and education and developing necessary warfighting skills 
through exercise and doctrine development. We have overhauled our 
initial skills training for officer and enlisted space operators, 
greatly expanding undergraduate space training, making it more relevant 
for the warfighting domain. We have implemented and expanded our 
advanced training for space operations and intelligence to include 
building Space Flag, our premier training exercise. We have also added 
foreign partners to the exercise. Coupled with well-established events 
like the Schriever Wargame, we believe that the best deterrence is a 
well-trained force ready for any contingency. We intend to establish 
several Space Force Centers, or Center equivalents, to execute space-
unique functions. They will be co-located with Air Force counterpart 
Centers to the maximum extent practicable in order to leverage existing 
infrastructure and resources. Space Force Centers will be established 
within existing DOD resources, with modest initial manpower increases 
included in the President's Budget PB request for FY 2021.
    Mr. Garamendi. How to you intend to grow the space cadre of 
professionals? Will you require non-voluntary assignment from the other 
services? Can you talk to what operations support and sustainment 
functions the Air Force will continue to provide the Space Force so 
that we minimize unnecessary duplication?
    General Thompson. Initially, the Space Force will be a mission-
focused force comprised of uniformed military personnel and Department 
of the Air Force civilians organized, trained and equipped to provide 
prompt and sustained space operations. The new Armed Force will create 
appropriate career tracks across relevant specialties, including space-
specific operations, intelligence, engineering, acquisition, science, 
and cyber. Our military is an all-volunteer force. Our goal is to 
transfer personnel on a voluntary basis as the missions, units and 
functions they perform are transferred to the Space Force. The Space 
Force will leverage the Department of the Air Force for more than 80% 
of its enabling functions like base support, real property management, 
IT and physical security.
    Mr. Garamendi.How many civilians do you project the Space Force 
will need, what functions do you anticipate they will perform, and what 
is your plan to attract the best possible talent for this workforce? 
Will there be a new category for Space Force civilians, or will they 
serve within the broader Department of the Air Force program? Are you 
confident that you have the authorities needed?
    General Thompson. All civilian employees will remain Department of 
the Air Force civilians whether they serve the Air Force or the Space 
Force. A new category will not be established. The civilian workforce 
plays a critical part in executing space operations today, and their 
role will continue to be critical as the Space Force grows and expands 
its mission set. Our FY21 budget request includes 3,545 civilian 
authorizations, with an expected growth to 4,247 across the FYDP. The 
Space Force is exploring use of all available alternate hiring 
authorities provided in current legislation. For example, expansion of 
the DOD Civilian Acquisition Workforce Personnel Demonstration Project 
(AcqDemo) to Space Force civilians could enable advantages including a 
sped up hiring process, the potential for faster advancement than the 
standard federal promotion process, flexibility to adequately 
compensate employees, and expansion of training and development 
opportunities. In total, this promotes a culture where the 
contributions of civilian employees are more clearly recognized and 
rewarded.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. My understanding is that the Joint All Domain Command 
and Control (JADC2) program is one of the highest priorities for the 
Department of Defense. Can you tell the subcommittee why this program 
is so important to the joint fight?
    General Wilson. As the technology that enables warfighting and 
assists warfighters continues to become more sophisticated, the Air 
Force, the other Services, and our partners must evolve to develop more 
agile tools to support the warfighter. We know our adversaries are 
becoming more sophisticated and adapting their technology for future 
conflict; the National Defense Strategy of 2018 lists this as a key 
factor of the complex global security environment the United States is 
entering. We cannot afford to remain reliant on the status quo; we will 
adapt our force for the future fight. Joint All Domain Command and 
Control, or JADC2, is an initiative intended to give warfighters 
decision advantage. Decision advantage is the ability to execute 
decision-making processes faster than an adversary. Ultimately, in 
conflict, this will allow commanders to prosecute the dynamic targeting 
process quickly. The goal is to give warfighters the ability to carry 
out thousands of dynamic targets in hundreds, if not tens, of hours. 
This is a dramatic improvement over how we, both as an Air Force and a 
Joint Force, operate today. JADC2 proposes a few key attributes to gain 
and maintain decision advantage:
    1. Sensing grid--Interconnected sensors that can utilize artificial 
intelligence/machine learning to process information at the edge. It 
enables us to provide warfighters with actionable intelligence and 
timely situational awareness.
    2. Robust, resilient, and redundant communications network--Assures 
critical communications in environments where adversaries attempt to 
deny or disrupt traditional means of communication.
    3. Distributed battle management--Empowers commanders to make 
decisions based on guidance from leadership, with knowledge of local 
conditions.
    4. Effects convergence--Provides warfighters the ability to 
converge effects from multiple domains, in synchronized time and space, 
on any target. This attribute of JADC2 not only speeds up the kill-
chain process, but also increases the potency of the effects available 
to any commander, any time.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. The mission capable rates of our aircraft have swung 
back and forth like a pendulum since the end of the Cold War. Is 
legislation needed to require the Air Force to constantly maintain 
their entire fleet of aircraft with a minimum 80% mission capable rate?
    General Wilson. No legislation is required at this time. Mission 
capable rate is only a partial measurement of readiness, and not all 
fleets require 80% mission capable rate to meet operational 
requirements. In fact, legislation absent top-line budgetary increases 
could be counterproductive as we seek to balance readiness, capability 
and modernization. Consistent funding provides the necessary 
predictability to address readiness challenges.
    Mr. Scott. JSTARS provides a significant component of the current 
fight's command and control capability. The technical experience and 
experience those operators have is critical to shaping ABMS. As ABMS 
moves forward in its development and test cycles, can you ensure us 
that the JSTARS operators will be engaged in helping shape the system's 
operational requirements? When do you expect there will be an 
operational test or demonstration at Robins AFB to get those operators 
fully engaged and confident in the future capability?
    General Wilson. The Air Force acknowledges the technical expertise 
at Warner Robins AFB; particularly in the areas of battle management, 
command, and control. Early and frequent engagement with the 
operational community is a core component of the ABMS effort. This is 
primarily managed through the combatant commands and major commands in 
order to ensure broad alignment across the force and with future 
operating requirements. Operational planners, battle managers, and 
intelligence analysts are already involved in planning ABMS onramp 
exercises and in shaping future development. Future ABMS planning will 
include a broad cross section of the operational community including 
operators from systems such as JSTARS, AWACS, Air Operations Centers, 
Control and Reporting Centers, and Distributed Common Ground System. 
Exercises are more likely to take place where there are large test 
ranges available to facilitate joint operational testing. Operators 
will connect to these exercises from a wide variety of distributed 
processing and C2 nodes. This distributed architecture is another key 
component of the ABMS effort.
    Mr. Scott. The Army has stated that the Advanced Battle Management 
System cannot be the sole solution to their multi-domain operations 
command and control. I'm concerned with the capability and timeline of 
ABMS and the lack of current fleet modernization, but having each 
service focus on its own C2 capability is how we ended up with billion 
dollar programs that can't communicate with each other. What is the Air 
Force doing to engage the Army to provide warfighter multi-domain 
operations C2 requirements as ABMS moves forward? How integrated is the 
Army in ABMS development and test efforts in order to work toward a 
true joint command and control capability instead of the ``every 
service has its own way'' system we have now?
    General Wilson. The Air Force and Army are already engaged on this 
subject, most recently at the Army Joint All-Domain Command and Control 
Home-on-Home event. The next engagement will be at the next scheduled 
Army-Air Force Warfighter talks. The Army participated in the first 
ABMS exercise with radars and long range fires. The Army has also been 
invited to participate in the next ABMS exercise with an infantry 
company, Sentinel radars, long range fires, and Apache helicopters. We 
expect to co-invest with the Army in certain technology areas including 
networks and data standards. We will work with the other services to 
build the connectivity required for a network-of-networks while we 
develop a concept for truly joint command and control over that 
network. ABMS is the Air Force technology investment in hardware, 
software, and digital infrastructure to enable this connectivity 
between the Air and Space Forces and with the broader Joint Force.
    Mr. Scott. Are the Air Force's Aggressor squadrons at risk of 
irrelevance from a lack of long-term recapitalization? What are the 
advantages of using fourth generation aircraft in an aggressor role to 
prepare for possible combat against Communist China or Russia? What are 
the disadvantages of using 4th generation aircraft in an aggressor 
role? What is the ideal aircraft for use by aggressor aircraft 
squadrons?
    General Wilson. Yes. The Air Force will continue to evaluate this 
risk as we prioritize numerous training and readiness requirements, 
across the force and across domains, and strive to balance operational 
training infrastructure investments to best deliver lethal, full 
spectrum readiness within AF TOA constraints.
    Fourth generation aircraft are cheaper to operate; have a higher 
aircraft availability rate, and can provide more sorties in a given 
time frame (utilization rate) than fifth generation aircraft, noting 
that a mix of fourth and fifth generation Aggressor aircraft is 
required to prepare for near-peer/peer threats.
    Fourth generation aircraft cannot replicate Fifth generation 
aircraft capabilities, nor provide low observable characteristics. A 
mix of Fourth and Fifth generation Aggressor aircraft is required, 
noting that as Fourth generation Aggressor aircraft age, they require 
hardware and software upgrades to remain relevant.
    There is no one ideal aircraft. Given that our potential 
adversaries operate Third, Fourth, and Fifth generation aircraft, our 
professional Aggressor force must replicate throughout the spectrum of 
threat aircraft capabilities, tactics, techniques, and procedures in 
order to prepare our combat forces for near-peer/peer threats, noting 
that a mix of both Fourth and Fifth generation Aggressor aircraft is 
necessary to allow for sufficient training at multiple locations.
    Mr. Scott. In standing up the United States Space Force, are there 
things you can do today at the onset that would prevent the Space Force 
from becoming a ``Hollow'' force in the future?
    General Thompson. Proper initial resourcing: The Air Force 
submitted the first ever separate budget request for space as part of 
the FY21 President's Budget cycle, identifying approximately $15.4B of 
transferred funding from across the DOD to resource the Space Force. 
With this budget request, the Air Force transferred all funding 
associated with space missions and functions to the Space Force, 
ensuring the new Armed Force was resourced to perform its mission.
    Future funding tailored to threats: Moving forward, the Space Force 
must have stable and consistent funding to enable it to address growing 
threats in the space domain. The Space Force is committed to minimizing 
cost and bureaucracy, but its end strength and budget should reflect 
rising threats from our adversaries. Having an independent budget will 
allow us to continue to advocate for DOD resources so we can protect 
and defend the space domain.
    Consolidation of space capabilities from across DOD: Establishment 
of the Space Force represents a once-in-a-generation opportunity to 
address long-standing challenges associated with fractured and 
disparate space architectures and capabilities. The SECDEF has made 
clear his vision is to consolidate the preponderance of space forces of 
all Armed Forces into the Space Force to address these challenges. To 
realize his vision, OSD is leading a study with the Army, Navy, and 
Space Force to identify the missions, functions, and units that should 
transfer to the new Service from across DOD. A decision is anticipated 
later this spring.
                                 ______
                                 
                     QUESTIONS SUBMITTED BY MR. KIM
    Mr. Kim. General Wilson, I understand that the Air Force is 
considering a change to the sustainment strategy for C-17 and concluded 
a business case analysis last year. Worryingly, the Air Force has 
acknowledged that the changes they are contemplating would degrade 
material readiness for the C-17 fleet. Joint Base McGuire is home to 14 
C-17 aircraft of the 305th Air Mobility Wing. These very high-demand 
aircraft can only support warfighter and humanitarian requirements if 
they continue to have the high mission capable rates operators have 
come to rely upon.
    1) To your knowledge were TRANSCOM and the Guard meaningfully 
consulted in the business case analysis? I am concerned that the 
warfighter may not have had a say in a contemplated change which would 
reduce mission capable rates.
    2) As the USAF works towards achieving 80% mission capable rates 
across the entire service, why would the USAF contemplate a change they 
acknowledge will reduce mission capable rates on a platform that has 
maintained or exceeded these 80% rates for more than 20 years, rather 
than use the existing sustainment arrangement as a model for other 
platforms? I do not believe trading an acknowledged degradation in 
readiness on a high-demand asset in exchange for disputed cost savings 
achieved over a 50-year window--with no ROI for 14 years--is the right 
thing to do for the warfighter or the taxpayer.
    General Wilson. In 2019, the Air Force completed a Product Support 
Business Case Analysis which suggested moving more heavy maintenance 
from the contractor's maintenance location to the Air Logistics Complex 
at Warner Robins could result in $7.2B savings across the program's 
life cycle. No changes that would degrade materiel readiness were 
considered, as the ground rules for the analysis required all courses 
of action must maintain current or improve C-17 virtual fleet 
performance (USAF and partner fleets). The Air Force's Air Mobility 
Command represented the user throughout the Product Support-Business 
Case Analysis effort. AMC is the air component of the U.S. 
Transportation Command and is responsible for a Total Force effort to 
execute Rapid Global Mobility and enable Global Reach missions. The C-
17 program office continues to assess feasibility of implementing any 
changes to the system's product support strategy.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. WILSON
    Mr. Wilson. I am concerned about the future of C-17 Globemaster 
sustainment. The current sustainment arrangement is a model program 
which has delivered 80%+ mission capable rates every year for more than 
20 years, in a true partnership between the contractor and the air 
logistics center at Warner Robins. Half or more of the heavy 
maintenance is performed by the depot, with the contractor augmenting 
with engineering, supply chain, management, and additional heavy 
maintenance capabilities. I understand that the Air Force is 
considering a change to the sustainment strategy for C-17 and concluded 
a business case analysis last year. Worryingly, the Air Force has 
acknowledged that the changes they are contemplating (pulling 100% of 
USAF fleet heavy maintenance organic) would degrade material readiness 
for the C-17 fleet. Joint Base Charleston is home to 40 C-17 aircraft, 
tied for the largest fleet in the U.S. These very high-demand aircraft 
can only support warfighter and humanitarian requirements if they 
continue to have the high mission capable rates operators have come to 
rely upon.
    As the USAF works towards achieving 80% mission capable rates 
across the entire service, why would the USAF contemplate a change they 
acknowledge will reduce mission capable rates on a platform that has 
maintained or exceeded these 80% rates for more than 20 years, rather 
than use the existing sustainment arrangement as a model for other 
platforms?
    General Wilson. In 2019, the Air Force completed a Product Support 
Business Case Analysis which suggested moving more heavy maintenance 
from the contractor's maintenance location to the Air Logistics Complex 
at Warner Robins could result in $7.2B savings across the program's 
life cycle. No changes that would degrade materiel readiness were 
considered, as the ground rules for the analysis required all courses 
of action must maintain current or improve C-17 virtual fleet 
performance (USAF and partner fleets). Additionally, no changes to the 
contractor's role in providing engineering support and supply chain 
management are being contemplated. The C-17 program office continues to 
assess feasibility of implementing any changes to the system's product 
support strategy.

                                  [all]
</pre></body></html>
